<html>
<title> - NOMINATIONS OF JERRY S. BYRD, JUDITH NAN MACALUSO, J. MICHAEL RYAN, III, AND FERN FLANAGAN SADDLER</title>
<body><pre>[Senate Hearing 108-101]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-101

  NOMINATIONS OF JERRY S. BYRD, JUDITH NAN MACALUSO, J. MICHAEL RYAN, 
                     III, AND FERN FLANAGAN SADDLER

=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                 ON THE

  NOMINATIONS OF JERRY S. BYRD, JUDITH NAN MACALUSO, J. MICHAEL RYAN, 
III, AND FERN FLANAGAN SADDLER, TO BE ASSOCIATE JUDGES FOR THE SUPERIOR 
                   COURT OF THE DISTRICT OF COLUMBIA

                               __________

                             JUNE 18, 2003

                               __________

      Printed for the use of the Committee on Governmental Affairs


88-679              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Deleware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas
              Michael D. Bopp, Staff Director and Counsel
                    Johanna L. Hardy, Senior Counsel
   Theresa Prych, Professional Staff Member, Oversight of Government 
    Management, the Federal Workforce, and the District of Columbia 
                              Subcommittee
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
           Jennifer E. Hamilton, Minority Research Assistant
  Marianne Clifford Upton, Minority Staff Director and Chief Counsel, 
  Oversight of Government Management, the Federal Workforce, and the 
                   District of Columbia Subcommittee
                      Amy B. Newhouse, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1
    Senator Carper...............................................     7
Prepared statement:
    Senator Lautenberg...........................................    17

                               WITNESSES
                        Wednesday, June 18, 2003

Hon. Eleanor Holmes Norton, Congresswoman from the District of 
  Columbia.......................................................     2
Jerry S. Byrd, to be Associate Judge of the Superior Court of the 
  District of Columbia...........................................     4
Judith Nan Macaluso, to be Associate Judge of the Superior Court 
  of the District of Columbia....................................     5
J. Michael Ryan, III, to be Associate Judge of the Superior Court 
  of the District of Columbia....................................     5
Fern Flanagan Saddler, to be Associate Judge of the Superior 
  Court of the District of Columbia..............................     6

                     Alphabetical List of Witnesses

Byrd, Jerry S.:
    Testimony....................................................     4
    Biographical and professional information....................    27
Macaluso, Judith Nan:
    Testimony....................................................     5
    Biographical and professional information....................    41
Norton, Hon. Eleanor Holmes:
    Testimony....................................................     2
Ryan, J. Michael, III:
    Testimony....................................................     5
    Biographical and professional information....................    76
    Responses to pre-hearing questions...........................   106
Saddler, Fern Flanagan:
    Testimony....................................................     6
    Biographical and professional information....................   113

                                Appendix

Hon. John W. Warner, a U.S. Senator from the State of Virginia, 
  prepared statement.............................................    17
Hon. Paul Strauss, Shadow U.S. Senator from the District of 
  Columbia, prepared statement...................................    18

 
  NOMINATIONS OF JERRY S. BYRD, JUDITH NAN MACALUSO, J. MICHAEL RYAN, 
                     III, AND FERN FLANAGAN SADDLER

                              ----------                              


                        WEDNESDAY, JUNE 18, 2003

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SD-342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, presiding.
    Present: Senators Voinovich and Carper.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Good morning. I apologize for being late 
this morning. I had a small emergency in the office. A special 
welcome to the families, friends, and colleagues that are here.
    The hearing will come to order, and I would like to welcome 
you today.
    The Senate Committee on Governmental Affairs convenes to 
consider four nominations to the Superior Court of the District 
of Columbia, Jerry S. Byrd to be an Associate Judge, Family 
Court Division; Judith Macaluso to be an Associate Judge, 
Family Court Division; J. Michael Ryan to be an Associate 
Judge, Family Court Division; and Fern Flanagan Saddler to be 
an Associate Judge.
    The three nominees to the Family Court Division of the 
District Superior Court have been nominated to fill new 
positions created by Congress in the Family Court Act of 2001. 
These justices will serve the Family Court for the first 5 
years of their 15 year term.
    The Committee takes its oversight responsibility of the 
District of Columbia Family Court very seriously. We created 
the Family Court system, and we are committed to making it 
successful.
    I welcome today's opportunity to discuss the court with 
you.
    Jerry Byrd has served as a Magistrate Judge in D.C. 
Superior Court since 1981. His legal background includes 16 
years of service with neighborhood legal services.
    Judith Macaluso has made a career of public service. She, 
too, serves as a Magistrate Judge in the D.C. Superior Court. 
Prior to that, Ms. Macaluso served as a trial attorney with the 
U.S. Department of Justice and the Department of Labor.
    Michael Ryan serves as Special Counsel to the Director of 
the Public Defender Service. Mr. Ryan's career includes an 
impressive dedication to mental health issues. He is a member 
of the Mental Health Retardation Branch Working Group at the 
D.C. Superior Court and is an advisory board member of the 
Criminal Justice Mental Health Consensus Project of the Police 
Executive Research Forum.
    Fern Flanagan Saddler was nominated by President Bush to 
fill a vacancy created by the retirement of Judge Patricia A. 
Wynn. Ms. Flanagan currently serves as Magistrate Judge for the 
Superior Court and has served since 1991. Her impressive 
background also includes service as the Acting Chief Deputy 
Clerk of the D.C. Court of Appeals and senior staff attorney at 
the Court of Appeals.
    I now welcome my colleague, Congresswoman Eleanor Holmes 
Norton for the District of Columbia, who is here to offer a few 
words of introduction for our nominees. Eleanor, thank you for 
being here with us today. You always have been very 
conscientious about your responsibilities, and we both 
recognize how important these judges are to the District.

 STATEMENT OF HON. ELEANOR HOLMES NORTON, A REPRESENTATIVE IN 
             CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Mr. Chairman. And may I 
thank you as well for your very kind and diligent attention to 
matters facing the District of Columbia, not the least of which 
was the creation or the revision of the Family Court, the first 
revision in 30 years, on which you and your Committee worked so 
diligently, and this particular introduction is of special 
interest. Fifteen new judges were authorized. Three of the four 
nominees here today will be Family Court Judges.
    You have outlined their qualifications. I will try not to 
repeat what you have said; rather I will quickly run through 
some of their impressive credentials. I will do so in 
alphabetical order.
    Jerry S. Byrd, who is now Deputy Presiding Magistrate of 
the Superior Court, where he has served since 1981, graduated 
cum laude from Fisk University and from Howard University Law 
School.
    Judith N. Macaluso, Magistrate Judge for 5\1/2\ years, 
spent 22 years as a trial and appellant attorney, won 17 awards 
at the Justice Department and served at the Labor Department. 
She is a magna cum laude graduate of Howard University Law 
School.
    J. Michael Ryan is Special Counsel to the Director of our 
Public Defender Service, which we consider the best public 
defender service in the country. You have spoken of his work in 
mental health where he has special responsibilities at the 
Public Defender's Service. He is also an Adjunct Assistant 
Professor of Psychology at Georgetown University Medical 
School. He has a B.A. from William and Mary and has a law 
degree from George Washington University.
    Finally, Fern Flanagan Saddler, the only judge of general 
jurisdiction, not for the Family Court in particular. A 
Magistrate Judge for 11 years, she is a graduate of Wellesley 
College and of Georgetown University Law School.
    I very much appreciate your willingness to hold this 
hearing so promptly, Mr. Chairman.
    Senator Voinovich. Thank you, Congresswoman.
    You know that you are welcome to stay for the remainder of 
the hearing, but I know that you have a very full schedule. We 
thank you again for being here with us this morning.
    Ms. Norton. Thank you very much.
    Senator Voinovich. It is the custom of the Committee to 
swear in witnesses. Therefore, I would ask all of you to rise.
    [Witnesses Sworn.]
    Senator Voinovich. Let the record note that all the 
witnesses answered in the affirmative.
    I understand that some of you have family members here 
today as well as supportive colleagues and friends. Please take 
this opportunity to introduce them now and make any opening 
remarks that you would like to make at this time.
    Mr. Byrd, we will start with you.
    Mr. Byrd. Thank you, Mr. Chairman. I would like to 
introduce Ms. Byrd; and Jerry Byrd, Jr., who just graduated 
from St. John's College High School. My secretary, Aylice Cobb 
is here. My good friend and colleague, Magistrate Judge Aida 
Melendez is here. And my long-time friend and colleague for 
over 20 years, Presiding Magistrate Judge J. Dennis Doylt is 
here also.
    Senator Voinovich. Thank you. Ms. Macaluso.
    Ms. Macaluso. Thank you, Mr. Chairman. I will make an 
introduction and make very brief remarks, if I may.
    With me today is Vincent Macaluso, my wonderful husband of 
32 years. He is retired from a long career as a public servant. 
Two of our children were able to be here today, Corine 
Macaluso, my beloved stepdaughter. She is a Transportation 
Specialist with the Department of Energy's Office of Civilian 
Radioactive Waste Management. Adam Macaluso, my beloved 
stepson, is a trial attorney with GEICO.
    I am very pleased to introduce dear friends from my legal 
life, J. Patrick Glynn, a Director of the Torts Branch, Civil 
Division, U.S. Department of Justice; Margaret Jane Mahoney, a 
trial attorney with the Environmental Torts Branch, Civil 
Division, U.S. Department of Justice; Jim Faulk, Jr., a Federal 
trial attorney and sports attorney, and past Chair of the 
Litigation Section of the District of Columbia Bar.
    I am honored to be able to introduce my very good friends 
from the mental health advocacy community, Joan Bowser, who is 
President of the District of Columbia Chapter of the National 
Alliance for the Mentally Ill; and Morton Schussheim who, with 
his late wife, Hanna Schussheim, was a Founding member of 
Friends of St. Elizabeths and is on the Board of Directors of 
the District of Columbia Chapter of the National Alliance for 
the Mentally Ill.
    Would now be the appropriate time for me to make my brief 
remarks?
    Senator Voinovich. I think what I will do is let everybody 
introduce their family and then we will hear statements. Thank 
you. Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman.
    I would like to introduce my wife, Catherine Blake Ryan; my 
son, Michael Porter Ryan; and my daughter, Virginia Blake Ryan.
    I regret that my parents passed away and could not be here 
to be present, as well. The Director of the Public Defenders 
Service for the District of Columbia, Ronald S. Sullivan, Jr. 
is here with me; my colleagues from the Public Defender 
Service, close friends and neighbors from my neighborhood, the 
Palisades. Thank you.
    Senator Voinovich. Thank you. Ms. Saddler.
    Ms. Saddler. Good morning, and thank you, Mr. Chairman.
    With me today are my wonderful husband, Reverend Paul 
Harvey Saddler, Executive Minister at Shaw Community Ministry 
in the District of Columbia; my brother, Dr. T. Earl Flanagan, 
Jr., retired Chief of the Dental Staff at St. Elizabeth's 
Hospital in Washington, DC; two of my favorite cousins, Malcolm 
Gee and Joan Miller are here today.
    I, too, regret that my parents could not be here; they are 
both deceased.
    I also have a host of friends, relatives and colleagues 
here. My colleagues that are here have already been introduced 
by Judge Byrd so I will not repeat that and I do thank them for 
coming. Here also are my secretary, Lillie Tyler; and my law 
clerk, Deborah Ohiomoba. I thank them for coming.
    Senator Voinovich. Thank you, very much.
    Mr. Byrd, we welcome any comments you would like to make to 
the Committee.

TESTIMONY OF JERRY S. BYRD,\1\ NOMINEE TO BE AN ASSOCIATE JUDGE 
       OF THE SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Byrd. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The biographical and professional information for Mr. Byrd 
appears in the Appendix on page 27.
---------------------------------------------------------------------------
    I see that Congresswoman Elenor Holmes Norton has gone but 
I want----
    Senator Voinovich. Excuse me, Mr. Bryd, I would like to 
mention that Senator Carper has joined us. Senator Carper, 
thank you for being here.
    Senator Carper. My pleasure.
    Mr. Byrd. I just want to put on the record that I 
appreciate her introduction of me at this hearing.
    It is a privilege and an honor for me to appear here today, 
to have this Committee consider whether to consent to my 
nomination as an Associate Judge in the District of Columbia 
Family Court.
    It is a culminating event. It is the end of a long-time 
dream. I appreciate the time and effort spent by the Committee 
members and the staff in considering my nomination.
    I am particularly grateful to the staff members who worked 
with me and assisted me in this process, and I really needed 
it.
    And finally, of course, I would not be here if the 
President had not submitted my name to the Senate, and for this 
I thank the President and the White House Office of Counsel to 
the President, who saw merit in my candidacy.
    Last but not least, I am indebted to the D.C. Judicial 
Nomination Commission for submitting my name to the President.
    One final remark: As you said, Mr. Chairman, Congress 
passed the D.C. Family Court Act to create a court that would 
specialize in family matters, particularly those dealing with 
children. This Committee has an oversight function to see that 
the type of judges that are appointed, in fact, have the 
credentials that are required by the statute.
    I would just like to say that as to whatever experience I 
may have gained over the years and I bring to the Family Court, 
I will dedicate it to the service of the community and D.C. 
children. I will devote myself to continued training, 
especially in the behavioral sciences as they improve in 
diagnosing and dealing with some of the problems that families 
face in the District of Columbia. Thank you.
    Senator Voinovich. Thank you, Mr. Byrd. Ms. Macaluso.

    TESTIMONY OF JUDITH NAN MACALUSO,\1\ A NOMINEE TO BE AN 
   ASSOCIATED JUDGE OF THE SUPERIOR COURT OF THE DISTRICT OF 
                            COLUMBIA

    Ms. Macaluso. Thank you, Mr. Chairman and Senator Carper.
---------------------------------------------------------------------------
    \1\ The biographical and professional information for Ms. Macaluso 
appears in the Appendix on page 41.
---------------------------------------------------------------------------
    I want to thank you both for taking the time to conduct 
this hearing and to consider my nomination.
    I also want to thank the highly professional, yet 
compassionate, Senate staff who helped me through the process 
and answered my many questions.
    It is also important for me to thank the members of the 
Judicial Nomination Commission who recommended me as a 
candidate; the staff of the White House Counsel's Office and 
the White House Counsel, Alberto Gonzalez; and President George 
W. Bush for nominating me.
    It would be a great privilege and a great responsibility to 
be entrusted with a judgeship on the District of Columbia's 
Family Court. Everyone who comes before the D.C. Superior Court 
deserves the best the court has to offer, but those involved in 
Family Court are truly the city's most vulnerable people, and I 
can assure you that, if I am fortunate enough to be confirmed 
as an Associate Judge on the Family Court, I will do my best to 
meet their needs.
    Thank you for considering me.
    Senator Voinovich. Thank you. Mr. Ryan.

   TESTIMONY OF J. MICHAEL RYAN, III,\2\ A NOMINEE TO BE AN 
   ASSOCIATE JUDGE OF THE SUPERIOR COURT OF THE DISTRICT OF 
                            COLUMBIA

    Mr. Ryan. Chairman Voinovich, Senator Carper, and Committee 
staffers, thank you.
---------------------------------------------------------------------------
    \2\ The biographical and professional information for Mr. Ryan 
appears in the Appendix on page 76.
---------------------------------------------------------------------------
    I am honored to be nominated by the President of the United 
States to be a judge on the Family Court. I am honored to 
appear before the Governmental Affairs Committee and the U.S. 
Senate for confirmation.
    I grew up in a house in which commitment to public service 
was always regarded as the highest and best use of one's 
talents. My father, Joseph Michael Francis Ryan, Jr., who 
passed away last summer, was a judge on the Superior Court and 
its predecessor courts for 35 years, the first 10 years 
actually in a family assignment. He was an attorney for the 
Department of Justice and in the U.S. Attorney's Office before 
that.
    My grandfather, Joseph M. F. Ryan, Sr., was a lawyer in 
Philadelphia for over 50 years.
    My commitment to our community and its legal system runs 
deep. My wife, Catherine, and I are raising our children, 
Virginia and Porter, to feel this commitment, to appreciate 
these same values and to understand that the ultimate measure 
of one's worth is the manner in which we serve our community.
    My career, from law school to present, honors this 
commitment. As an attorney for the Public Defender Service in 
our Mental Health Division, trying many cases in the court's 
Family Division, it has been my privilege to serve our 
community for almost 18 years.
    I have always relished the chance to give a voice to those 
least fortunate in our society. And the role of the zealous 
advocate is, without doubt, very important. However, the 
impartial judge is the sine qua non of our system of justice.
    If given the opportunity to serve on the Superior Court, I 
will strive to emulate the best of those who have gone before 
me, and in front of whom I have practiced, judges who provide 
an accessible forum for the solution of problems, judges who 
respect both the law and the litigants, and judges who 
demonstrate patient fairness in the resolution of disputes.
    Thank you for this opportunity to address the Committee. 
The new Family Court is both a challenge and a promise. My 
career, I would submit, has prepared me to meet this challenge 
and I am dedicated to fulfill the promise to this city if given 
the opportunity.
    Senator Voinovich. Thank you, Mr. Ryan. Ms. Saddler.

   TESTIMONY OF FERN FLANAGAN SADDLER,\1\ A NOMINEE TO BE AN 
   ASSOCIATE JUDGE OF THE SUPERIOR COURT OF THE DISTRICT OF 
                            COLUMBIA

    Ms. Saddler. Thank you, Mr. Chairman, Senator Carper, and 
staff members, for this opportunity to make remarks.
---------------------------------------------------------------------------
    \1\ The biographical and professional information for Ms. Saddler 
appears in the Appendix on page 113.
---------------------------------------------------------------------------
    I would like to say that it is quite an honor and a 
privilege to be here today. I am so humbled by this occasion.
    It has been a lifelong dream of mine to become an Associate 
Judge of the Superior Court of DC.
    There are so many persons that I wish to thank today. 
Obviously, I do not have time to thank everyone; we would run 
out of time. But I would especially like to thank the Judicial 
Nomination Commission for submitting my name to President 
George Bush as a candidate for the Superior Court. I wish to 
thank the President for nominating me as an Associate Judge of 
the Superior Court. And I would like to thank the Senate staff 
and the Senate for convening this hearing today. The staff has 
been particularly helpful and has worked diligently to get me 
to this stage and through the process.
    I would also like to thank, even though she left, Delegate 
Eleanor Holmes Norton for introducing me today, and Senator 
Paul Strauss, Shadow Senator for the District of Columbia, for 
being here today and submitting a statement in support of my 
nomination.\1\ And also, to Senator John Warner and his staff 
for supporting my nomination, also, and for the statement 
submitted in support.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Paul Strauss appears in the 
Appendix on page 18.
---------------------------------------------------------------------------
    If confirmed, I will be an excellent Associate Judge and 
will do my best to serve the District of Columbia to the best 
of my ability.
    Thank you very much.
    Senator Voinovich. Thank you. For the record, I would 
reiterate that the Judicial Nomination Commission recommended 
your names to the President of the United States. The President 
then recommended you to the Senate. The Committee reviewed 
reports from the FBI on each of you. The staff of this 
Committee have reviewed your qualifications and have asked you 
many of the tough questions you needed to answer.
    I have personally reviewed the FBI files on each of you, 
and I am impressed by your qualifications. The fact that three 
of you have served as magistrates and have been in public 
service a long time, it is very comforting to me as you are 
moving into new positions.
    Mr. Ryan, you spoke very eloquently, and you are anxious to 
have an opportunity to serve.
    This court is very important. I come from a State where we 
have juvenile judges. I must tell you that when I appointed 
those judges to fill a vacancy I really paid a lot of attention 
to the qualities and qualifications of the individuals. As a 
judge you have an opportunity to make a real difference in the 
lives of some youngsters and families that really have some 
problems.
    What you do and how conscientious you are in carrying out 
your responsibilities, can leave a lasting impression. You can 
touch a family. You can touch the individual that comes before 
you and make a difference for the rest of their lives.
    That is why we were so interested to establish the Family 
Court, so we would have that kind of special attention you will 
bring. You all have unique experiences, and as you to start to 
work with these cases, with the social workers, and so forth, 
you have an unbelievable opportunity to touch the lives of 
people and make a real difference.
    I hope you look forward to that opportunity. It is a 
special one.
    Senator Carper, would you like to make any comments before 
I ask the witnesses to answer some questions that they are 
required to answer?

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Like Governor Voinovich, I was once a 
governor. In Delaware, we do not elect judges, we appoint them. 
Governor's nominate them. We have a judicial nominating 
commission. They submit the names to the governor and the 
governor considers those nominees, nominates one and our State 
Senate than has the opportunity to hold hearings and then to 
vote to confirm or not to confirm.
    So this is a process we have both been through from earlier 
parts of our life and I look forward to asking some questions 
of all of you.
    Thank you for coming, and a special welcome to your 
families and to the Shadow Senator sitting out there in the 
audience.
    Senator Voinovich. There are three questions that I am 
required by the Committee to ask each if you.
    Is there anything that you are aware of in your background 
that might present a conflict of interest with the duties of 
the office to which you have been nominated? I would like each 
one of you to respond.
    Mr. Byrd. No, sir.
    Ms. Macaluso. No.
    Mr. Ryan. No, sir.
    Ms. Saddler. No, sir.
    Senator Voinovich. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharge the responsibilities of the office to which 
you have been nominated?
    Mr. Byrd. No, sir.
    Ms. Macaluso. No, sir.
    Mr. Ryan. No, sir.
    Ms. Saddler. No, sir.
    Senator Voinovich. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from serving the 
full term for the office to which you have been nominated?
    Mr. Byrd. Mr. Chairman, I would say that I can serve the 5-
year term in the Family Court, but would not be able to serve 
the 15 year term of the regular Associate Judge because I will 
be forced to retire before I can serve my 15 years.
    Senator Voinovich. Why would you be forced to retire?
    Mr. Byrd. The retirement age is 74 and I am 67 now.
    Senator Carper. You are not. Do you have any ID we could 
see? Whatever you are eating and drinking, keep it up.
    Mr. Byrd. Other than that, yes, I can serve.
    Senator Carper. God, you are old. So am I.
    Mr. Byrd. Senator Carper, I believe that Shadow Senator 
Strauss, introduced me to you in the Senate cafeteria about a 
week ago.
    Senator Carper. We were eating spinach salads that day, as 
I recall.
    Senator Voinovich. Ms. Macaluso.
    Ms. Macaluso. There is nothing that would interfere with my 
serving out my full term. Thank you, Mr. Chairman.
    Mr. Ryan. There is nothing that I am aware of that would 
interfere with my serving a full term, Mr. Chairman.
    Senator Voinovich. Ms. Saddler.
    Ms. Saddler. There is nothing I am aware of that would 
prevent me from serving the full-term.
    Senator Voinovich. Thank you.
    I have a few additional questions that I now would like to 
ask, but I am going to yield to Senator Carper. He was so kind 
to come in and appear here this morning. So often, when I have 
done this, none of my colleagues are able to attend. It is not 
that they are not interested, but everyone is so busy. They 
know that you have all gone through the rigors of this whole 
process.
    But I particularly appreciate Senator Carper being here and 
Senator, I would like to give you an opportunity to ask any 
questions that you might have because I know you are very busy.
    Senator Carper. You are very kind, Mr. Chairman. Thank you 
very much.
    I have three questions I want to ask of each of you. I will 
mention the questions and then we will come back and take them 
one at a time. I would like for you to answer these questions 
in about a minute, if you will. So fairly crisp responses.
    Why do you want to be a judge? And particularly why do you 
want to be this kind of judge?
    Setting aside modesty, I admire modesty in people, but 
setting aside modesty, why are you well prepared to assume 
these responsibilities?
    And how about describing for us the attributes of judges 
whom you admire and who you would seek to emulate?
    Mr. Byrd. I guess I go first?
    Senator Carper. Since you are the oldest.
    Mr. Byrd. The reason I would like to be an Associate Judge 
is that I have served as a Magistrate Judge for a long time and 
I have found that--an Associate Judge, of course, has more 
responsibility and can do more in terms of assisting the 
community and helping the Family Court than a Magistrate Judge.
    As an Associate Judge, I would have more control over the 
cases that I have. I would control the cases from the beginning 
to the end. I would be able to fashion orders and solutions to 
problems that, as a Magistrate Judge, I would not be able to do 
because once a Magistrate Judge gets through with preliminary 
proceedings the case is passed over to an Associate Judge.
    I think I am well prepared for an assignment in the Family 
Court. I guess out of the 20 years I have been at the court, I 
have spent, maybe 10 or 15 years dealing with family matters 
one way or another. So, I have dealt with the type of family 
cases that I would get as an Associate Judge, at least in their 
preliminary stages.
    For example, in our abuse and neglect cases, as a 
Magistrate Judge, I have dealt with the initial hearing stages 
and the initial placement of the children, but I have not dealt 
with the fact-finding or dispositional hearings. That is 
something I would have to do as an Associate Judge.
    But the divorces and other items such as mental retardation 
cases, mental health cases, establishing paternity and child 
support cases, I already do. So I would think that I would be 
qualified in these areas.
    As far as attributes for a judge, I would say that Judge 
James Belson, who is now a Senior Judge at the Court of Appeals 
but started out as a Judge in Superior Court, has attributes of 
a judge that I emulate and that I think are very good.
    Senator Carper. What are those?
    Mr. Byrd. He has, first, a good judicial demeanor. He is 
competent and intelligent. He was compassionate as a trial 
judge, and he dealt with his cases on an expedited basis. After 
he served for 10 or 15 years as a trial judge he went to the 
Court of Appeals where he writes instructive and understandable 
decisions. This shows to me that he is well-rounded. He is 
well-liked and well-respected.
    So he is the type of judge that I would emulate, that I do 
emulate.
    Senator Carper. Thank you.
    Ms. Macaluso. Senator Carper, to address your first 
question of why I want to be a judge, I have always felt, even 
as I was a lawyer for 22 years, that was the part of the legal 
system that most fit my personality. What I really wanted to do 
was make the case come out right, rather than be an advocate 
for one side.
    And then I was fortunate enough to become a Magistrate 
Judge, which is a judge of a court of limited jurisdiction. I 
found that was indeed the niche within the legal system that 
satisfied me best.
    Being a judge of the Family Court is a particular 
attraction and a wonderful opportunity. It is an opportunity to 
serve, as I indicated before, the most vulnerable citizens of 
the District of Columbia and to serve them at a particular time 
when the Family Court is first being formed, when we will be 
able to make a most important contribution to shape the Family 
Court.
    As Judge Byrd indicated, the Magistrate Judges are 
particularly well prepared to make this contribution. We have 
already presided over many of the kinds of cases involved in 
Family Court, child abuse, child neglect, juvenile delinquency, 
paternity, child support, uncontested divorces, mental 
retardation. We have handled mental health issues in the 
context of criminal calendars. We have handled domestic 
violence issues on the domestic violence calendar and also in 
the context of felony criminal calendars. And we have done so 
in the role of a judge.
    So we do come to this position, I think, particularly well 
prepared.
    Attributes that I would seek to emulate, I particularly 
admire Noel Kramer on our court, and she has a plaque in our 
own personal office within her chambers. On that plaque are 
written the words, ``Patients, Dignity, Fairness.'' Those are 
certainly three wonderful attributes for me to keep in mind, as 
this judge I respect very highly, keeps them in mind on a daily 
basis.
    You cannot put everything on a plaque, so to that I would 
add ``Timeliness.'' I think it is tremendously important for a 
judge to issue decisions quickly.
    And also respect for each individual who comes before you. 
It is vitally important that a judge never lose the sense that 
those people before the judge are distinct individuals. They 
are not just items on that day's conveyor belt.
    Those are the attributes that I hope to emulate.
    Senator Carper. Those are great attributes. I would hope 
that all of you would subscribe to them and embrace them.
    They are great words on the plaque but they are even better 
when they come from your heart. Mr. Ryan.
    Mr. Ryan. Senator Carper, thank you.
    I would like to become a judge. I have been an advocate for 
many years and I would like very much to be the problem solver, 
the person who ultimately helps the community solve the 
problems that are brought to the courthouse.
    As a public interest lawyer, the pinnacle of community 
service, as far as I am concerned, short of joining the 
legislature perhaps, is being a trial judge. I would like very 
much to do that.
    I believe that I am qualified for that because of the 
extensive experience that I have had litigating in most of the 
divisions of the courthouse.
    Specifically for the Family Court, the experience that I 
have had in mental health law, I believe uniquely qualifies me 
for that and prepares me for it, because the mental health 
issues that one sees in the courthouse go through all of the 
different divisions and they affect, especially in the Family 
Division, the development of children and the forces that keep 
the family together and drive a family apart.
    So I would say that my mental health experience is very 
important in bringing me to the Family Court.
    With respect to qualities that I admire in jurists, the 
ability to make the courthouse an accessible forum to all 
people is perhaps most important to me. Judges who demonstrate 
respect for both the law and the litigants, the parties that 
are before them, and everyone in the courtroom, and give the 
community the impression that this is a very serious and 
honorable thing that is being undertaken in the courthouse is 
very important to me.
    And patient fairness is ultimately what I would look for in 
myself as a judge and what I have admired in others. There are 
many great judges that have practiced in front of me over the 
years and the ones that came to mind immediately were Truman 
Morrison and Ricardo Urbina and Emmett Sullivan, three great 
judges that I have had the privilege of appearing in front of 
and would love to do as well as they have done.
    Senator Carper. Thank you, Mr. Ryan. Ms. Saddler.
    Ms. Saddler. Thank you, Senator.
    In response to your question of why I want to be an 
Associate Judge, as I mentioned earlier, that has been a 
lifelong dream. And I have served for the past 12 years as a 
Magistrate Judge at the Superior Court of the District of 
Columbia and have rotated among the three divisions and have 
extensive experience in all three divisions.
    I want to an Associate Judge. There are some things that 
Associate Judges do that the Magistrate Judges cannot do and I 
would like the opportunity to do that. For example, the 
Associate Judges conduct jury trials whereas as we do not do 
that. Every trial we do is a bench trial. So I look forward to 
that opportunity. And there are some assignments or divisions 
that we do not have jurisdiction over, such as landlord and 
tenant. So I look forward to those assignments.
    And I would like to be an Associate Judge because I believe 
I can help the court. I have done a good job, a very good job 
as a Magistrate Judge. I am familiar with the players there. I 
know just about all of the staff. I am very familiar with the 
court and its divisions. I think I can be very helpful to this 
court.
    Senator Carper. Just describe the attributes of the kind of 
judge you would be.
    Ms. Saddler. I believe one of the most important attributes 
of a judge is an excellent judicial temperament, somebody who 
treats all litigants fairly, with dignity, and with respect, 
who is well-prepared when they come to the bench, makes well-
reasoned decisions based upon the law, and applicable facts in 
each case.
    As to the attributes of judges that I admire, I would name 
Judge Nan Shuker and Judge Paul Weber. I have worked with both 
of them extensively, especially Judge Shuker when I was in the 
Civil Division, and Judge Paul Weber was also--I worked with 
him closely before he retired when I was in the Civil Division. 
They both are very well-prepared judges. And I have also 
appeared in front of them when I was an attorney.
    They are well-prepared with their cases. It appears that 
they have read the materials and are familiar with the 
materials. They always appear fair and just. They take the 
bench on time. They have proper courtroom demeanor and decorum 
in my view.
    Senator Carper. Mr. Chairman, as Ms. Saddler concludes her 
remarks, I am just reminded that most of the attributes that 
they have described that they would seek to be in a judge would 
be good attributes for guys like us.
    Thank you for letting me join you, Senator Voinovich. I 
serve on a bunch of different committees, and I have another 
one that is meeting right now and I am going to slip out and 
join that.
    Thank you for giving me a chance to ask those questions. 
Welcome and good luck. Thanks for your public service. And to 
your families that are gathered in the room with us today, 
thank you for sharing your loved ones, even your cousins, with 
the people of this district. Thank you.
    Senator Voinovich. Thank you, Senator Carper.
    I thought that Senator Carper's questions were very well 
stated and your responses were very kind. And quite frankly, 
some of the questions that I wanted to ask you already answered 
for me.
    Mr. Ryan, I have a question I would like to ask you. After 
this hearing is over, your names will be brought to the 
Committee for consideration and then Members will have to 
decide if they will recommend you to the full Senate. And I am 
sure that one of the questions that will be on the minds of 
many of the Members when they look at the record, is the issue 
of the tax difficulties that you disclosed to this Committee in 
your pre-hearing questionnaire.
    I would like you to comment on the record about this. As I 
say, it will be an issue that will be raised by some of them 
and I would rather have it in the record so that we do not have 
any question about it.
    Mr. Ryan. Surely, Mr. Chairman. There were taxes that we 
filed late as a result of having to have a major overhaul of 
the way our income had been calculated. And we worked with the 
IRS to make those filings. We paid everything that was due and 
owing, although we did pay them late. We filed extensions up 
until a point and worked closely with the IRS to file what we 
were supposed to file when we could. We met all of our 
obligations and have thereafter, sir.
    Senator Voinovich. I would like a commitment from you today 
in public that you are going to file your returns from now, on 
time.
    Mr. Ryan. Absolutely. You have that. And I have done that 
since then.
    Senator Voinovich. There will never be any question 
whatsoever in the future.
    Mr. Ryan. You have that, Mr. Chairman.
    Senator Voinovich. All of you have to understand that you 
are going to set an example for other people. Frankly, what you 
do in your personal, private lives many times, as you know in 
this business, gets out in the press. And if you say one thing 
to somebody in the Courtroom and you do something else, the 
impact that you have on those individuals is not positive.
    Thank you, very much, Mr. Ryan.
    Mr. Ryan. Thank you Senator.
    Senator Voinovich. One of the things that the statute 
requires is that all Family Court judges must have, Mr. Byrd, 
Ms. Macaluso, and Mr. Ryan, training and experience in family 
law, must intend to serve the 5-year term, and must certify to 
the chief judge that he or she will participate in ongoing 
training programs.
    I would like to know, first, do you all agree to 
conscientiously participate in the training sessions? And if 
any of you would like to comment on that, I would be interested 
in hearing your thoughts.
    Mr. Byrd. Yes, sir. I would like to say, Mr. Chairman, that 
with respect to the training program, that I would and will 
presently participate in the training programs in Superior 
Court.
    And that not only is it required by the statute, but that I 
think it will make me a better Family Court Judge. As a person 
who has gone to law school and as a judge, I can oftentimes 
read new legal decisions and I do not really need that much 
training. But when it comes to applying the behavioral sciences 
to the volatile situations that we get in these family law 
cases, then I know that I am in need of that type of training, 
that type of introduction to those disciplines.
    The presiding judge of the Family Court, Joe Satterfield, 
has ongoing training. And I just yesterday went to a training 
session. So I intend to fully go to all training sessions, not 
only because they are required by statute, but because it will 
make me a better Family Court Judge.
    Senator Voinovich. Thank you. Ms. Macaluso.
    Ms. Macaluso. Mr. Chairman, I do not think I can improve 
upon or even enlarge upon the remarks that Judge Byrd just 
made. I was with Judge Byrd yesterday in the training session 
that we had over the lunch hour. As a matter of fact, there is 
another training session starting at 4:30 this afternoon.
    Both of us are very dedicated to attending these training 
sessions.
    We have been very fortunate because, as Magistrate Judges 
already at the court, we have had the opportunity over the last 
several months while our nominations have been pending to start 
this training and to attend the ongoing Family Court training. 
We both know how valuable and on point this training is.
    Thank you, sir.
    Senator Voinovich. Mr. Ryan.
    Mr. Ryan. I look forward to any opportunity to go to 
trainings dealing with the Family Court and trainings generally 
dealing with the work of being a judge. I look forward to it, 
sir.
    Senator Voinovich. Ms. Saddler, the training that you have 
received, have you found it well worthwhile in your 
responsibilities as a magistrate?
    Ms. Saddler. Extremely worthwhile. I have been a member of 
the Judicial Training Committee for several years. And in that 
aspect on several occasions I am called upon to train. Often it 
is helpful to learn when you are training, also.
    But I have found it extremely helpful to go to all the 
training sessions, have tried to go to all of them, and will 
participate in any training for whatever division I am sent to, 
if confirmed.
    Senator Voinovich. Under the Family Court Act, ongoing 
training for Family Court judges must include child 
development, family dynamics including domestic violence, 
relevant Federal and D.C. laws, permanency planning and 
practice, and recognizable risk factors for child abuse.
    I just want to repeat that again. It includes child 
development, family dynamics including domestic violence, 
relevant Federal and D.C. laws, permanency planning and 
practice, and recognizable risk factors for child abuse.
    Since you started the training, Mr. Byrd and Ms. Macaluso, 
do you think there is anything else that we ought to have 
included in there in terms of training?
    Ms. Macaluso. May I jump in to speak for that?
    I do not know that the area of mental illness has been 
specifically highlighted in that list. And yet, mental health 
issues permeate virtually all of the child abuse and child 
neglect cases and are present in a great majority of the 
juvenile delinquency cases.
    I know that, although that category is not specified, 
certainly Michael Ryan, if he is fortunate enough to be 
confirmed, and I if I am fortunate enough to be confirmed, are 
dedicated and motivated with respect to those issues.
    Judge Ann O'Regan Keery at the court is a former General 
Counsel of St. Elizabeths and we have something of a mental 
health caucus building at the court, now. And I know that area 
of training will be something we will work very hard to 
address.
    Senator Voinovich. Thank you. That is a very good point. 
You are right, that if you go back to it there is usually some 
problem that deals with mental illness.
    I will be interested to see the recommendation that just 
came out of the President's Commission. Michael Hogan, who is 
the Chairman, is the Mental Health Director for the State of 
Ohio. I hired him many years ago, and he continues to serve in 
that capacity.
    I think that mental illness is something that we need to 
talk more about in this country because it can have a profound 
impact on our society.
    That is a good suggestion. We will have the staff make note 
of that.
    I think that I have asked enough questions. Would any of 
you like to make any further comments before we adjourn this 
hearing?
    Again, I would like to thank all of you for coming here 
today, and I would like to thank the members of your families 
for being here and backing you up. I know that this is a 
special time for your families. Many of you have indicated that 
reaching the bench has been a desire on your part for a long 
time. And today, if everything goes the way I expect it to, 
that desire that you have will be achieved.
    I think the fact that you have diverse experiences, it is a 
great benefit. You have worked your way up and get your eye on 
that job, and wow, I have an opportunity to serve and make a 
difference for my fellow human beings.
    So again, thank you very much for being here. And for the 
children that are here, you can mark this down in your books as 
a special day. Again, thank you very much.
    The hearing is adjourned.
    [Whereupon, at 10:47 a.m., the hearing was adjourned.]


                            A P P E N D I X

                              ----------                              


                PREPARED STATEMENT OF SENATOR LAUTENBERG

    Mr. Chairman, we have before us four nominees to be Associate 
Judges of the Superior Court of the District of Columbia. I would make 
two related points.
    The District of Columbia has more people than Wyoming and nearly as 
many as Vermont and Alaska. Yet DC is not a State and so does not have 
two U.S. Senators; its House Member, Delegate Eleanor Holmes Norton, 
had her voting privilege rescinded by House Republicans when they took 
over in 1995.
    It would be easy--and terribly unfortunate--for the Administration 
to try to ``ram'' judicial nominees down DC's throat. There have been 
far too many instances over the years in which the Executive Branch 
and, I'm sorry to say, Congress have run roughshod over Home Rule in 
D.C.
    Fortunately, that does not appear to be the case here.
    We have the DC Judicial Nomination Commission, which compiles and 
submits a lost of nominees to the President. The President makes his 
selections from that list.
    Which brings me to my second point: I think it is refreshing that 
the District of Columbia--one of the most progressive jurisdictions in 
the country--can come to some agreement with a conservative Republican 
President on judicial nominees?
    I think it is a model we ought to be looking at with regard to 
reaching a consensus on other Federal judicial nominees.
    Thank you, Mr. Chairman. I look forward to hearing from our 
nominees.

                               __________

                  PREPARED STATEMENT OF SENATOR WARNER

    Chairman Collins, Senator Lieberman, and my other distinguished 
colleagues on the Senate's Government Affairs Committee, I thank you 
for holding this confirmation hearing today.
    Today, I am pleased to introduce to you Magistrate Judge Fern 
Flanagan Saddler, who has been nominated to serve as a judge on the 
District of Columbia's Superior Court.
    Miss Saddler has a strong legal background. Subsequent to earning 
her J.D. at Georgetown University Law Center in 1979, she practiced law 
for many years in Washington, D.c. at the law firm Mitchell, Shorter 
and Gartrell. She represented many clients in civil, family, and 
criminal cases before local and Federal trial courts as well as Federal 
appellate courts.
    Over the years, Magistrate Judge Saddler has served the District of 
Columbia Court of Appeals in many capacities. First, she served as a 
Senior Staff Attorney for the court, and then as the Acting Chief 
Deputy Clerk.
    In February 1991, she was sworn in as a Magistrate Judge for the 
Superior Court of the District of Columbia. For the past 11 years, she 
has rotated among the Family, Criminal, and Civil Divisions of the 
court.
    As you can see, Magistrate Judge Saddler's experience with the law 
is extensive. I support her nomination, and look forward to the 
Committee reporting out her nomination favorably.

[GRAPHIC] [TIFF OMITTED] T8679.001

[GRAPHIC] [TIFF OMITTED] T8679.002

[GRAPHIC] [TIFF OMITTED] T8679.003

[GRAPHIC] [TIFF OMITTED] T8679.004

[GRAPHIC] [TIFF OMITTED] T8679.005

[GRAPHIC] [TIFF OMITTED] T8679.006

[GRAPHIC] [TIFF OMITTED] T8679.007

[GRAPHIC] [TIFF OMITTED] T8679.008

[GRAPHIC] [TIFF OMITTED] T8679.009

[GRAPHIC] [TIFF OMITTED] T8679.010

[GRAPHIC] [TIFF OMITTED] T8679.011

[GRAPHIC] [TIFF OMITTED] T8679.012

[GRAPHIC] [TIFF OMITTED] T8679.013

[GRAPHIC] [TIFF OMITTED] T8679.014

[GRAPHIC] [TIFF OMITTED] T8679.015

[GRAPHIC] [TIFF OMITTED] T8679.016

[GRAPHIC] [TIFF OMITTED] T8679.017

[GRAPHIC] [TIFF OMITTED] T8679.018

[GRAPHIC] [TIFF OMITTED] T8679.019

[GRAPHIC] [TIFF OMITTED] T8679.020

[GRAPHIC] [TIFF OMITTED] T8679.021

[GRAPHIC] [TIFF OMITTED] T8679.022

[GRAPHIC] [TIFF OMITTED] T8679.023

[GRAPHIC] [TIFF OMITTED] T8679.024

[GRAPHIC] [TIFF OMITTED] T8679.025

[GRAPHIC] [TIFF OMITTED] T8679.026

[GRAPHIC] [TIFF OMITTED] T8679.027

[GRAPHIC] [TIFF OMITTED] T8679.028

[GRAPHIC] [TIFF OMITTED] T8679.029

[GRAPHIC] [TIFF OMITTED] T8679.030

[GRAPHIC] [TIFF OMITTED] T8679.031

[GRAPHIC] [TIFF OMITTED] T8679.032

[GRAPHIC] [TIFF OMITTED] T8679.033

[GRAPHIC] [TIFF OMITTED] T8679.034

[GRAPHIC] [TIFF OMITTED] T8679.035

[GRAPHIC] [TIFF OMITTED] T8679.036

[GRAPHIC] [TIFF OMITTED] T8679.037

[GRAPHIC] [TIFF OMITTED] T8679.038

[GRAPHIC] [TIFF OMITTED] T8679.039

[GRAPHIC] [TIFF OMITTED] T8679.040

[GRAPHIC] [TIFF OMITTED] T8679.041

[GRAPHIC] [TIFF OMITTED] T8679.042

[GRAPHIC] [TIFF OMITTED] T8679.043

[GRAPHIC] [TIFF OMITTED] T8679.044

[GRAPHIC] [TIFF OMITTED] T8679.045

[GRAPHIC] [TIFF OMITTED] T8679.046

[GRAPHIC] [TIFF OMITTED] T8679.047

[GRAPHIC] [TIFF OMITTED] T8679.048

[GRAPHIC] [TIFF OMITTED] T8679.049

[GRAPHIC] [TIFF OMITTED] T8679.050

[GRAPHIC] [TIFF OMITTED] T8679.051

[GRAPHIC] [TIFF OMITTED] T8679.052

[GRAPHIC] [TIFF OMITTED] T8679.053

[GRAPHIC] [TIFF OMITTED] T8679.054

[GRAPHIC] [TIFF OMITTED] T8679.055

[GRAPHIC] [TIFF OMITTED] T8679.056

[GRAPHIC] [TIFF OMITTED] T8679.057

[GRAPHIC] [TIFF OMITTED] T8679.058

[GRAPHIC] [TIFF OMITTED] T8679.059

[GRAPHIC] [TIFF OMITTED] T8679.060

[GRAPHIC] [TIFF OMITTED] T8679.061

[GRAPHIC] [TIFF OMITTED] T8679.062

[GRAPHIC] [TIFF OMITTED] T8679.063

[GRAPHIC] [TIFF OMITTED] T8679.064

[GRAPHIC] [TIFF OMITTED] T8679.065

[GRAPHIC] [TIFF OMITTED] T8679.066

[GRAPHIC] [TIFF OMITTED] T8679.067

[GRAPHIC] [TIFF OMITTED] T8679.068

[GRAPHIC] [TIFF OMITTED] T8679.069

[GRAPHIC] [TIFF OMITTED] T8679.070

[GRAPHIC] [TIFF OMITTED] T8679.071

[GRAPHIC] [TIFF OMITTED] T8679.072

[GRAPHIC] [TIFF OMITTED] T8679.073

[GRAPHIC] [TIFF OMITTED] T8679.074

[GRAPHIC] [TIFF OMITTED] T8679.075

[GRAPHIC] [TIFF OMITTED] T8679.076

[GRAPHIC] [TIFF OMITTED] T8679.077

[GRAPHIC] [TIFF OMITTED] T8679.078

[GRAPHIC] [TIFF OMITTED] T8679.079

[GRAPHIC] [TIFF OMITTED] T8679.080

[GRAPHIC] [TIFF OMITTED] T8679.081

[GRAPHIC] [TIFF OMITTED] T8679.082

[GRAPHIC] [TIFF OMITTED] T8679.083

[GRAPHIC] [TIFF OMITTED] T8679.084

[GRAPHIC] [TIFF OMITTED] T8679.085

[GRAPHIC] [TIFF OMITTED] T8679.086

[GRAPHIC] [TIFF OMITTED] T8679.087

[GRAPHIC] [TIFF OMITTED] T8679.088

[GRAPHIC] [TIFF OMITTED] T8679.089

[GRAPHIC] [TIFF OMITTED] T8679.090

[GRAPHIC] [TIFF OMITTED] T8679.091

[GRAPHIC] [TIFF OMITTED] T8679.092

[GRAPHIC] [TIFF OMITTED] T8679.093

[GRAPHIC] [TIFF OMITTED] T8679.094

[GRAPHIC] [TIFF OMITTED] T8679.095

[GRAPHIC] [TIFF OMITTED] T8679.096

[GRAPHIC] [TIFF OMITTED] T8679.097

[GRAPHIC] [TIFF OMITTED] T8679.098

[GRAPHIC] [TIFF OMITTED] T8679.099

[GRAPHIC] [TIFF OMITTED] T8679.100

[GRAPHIC] [TIFF OMITTED] T8679.101

[GRAPHIC] [TIFF OMITTED] T8679.102

[GRAPHIC] [TIFF OMITTED] T8679.103

[GRAPHIC] [TIFF OMITTED] T8679.104

[GRAPHIC] [TIFF OMITTED] T8679.105

[GRAPHIC] [TIFF OMITTED] T8679.106

[GRAPHIC] [TIFF OMITTED] T8679.107

[GRAPHIC] [TIFF OMITTED] T8679.108

[GRAPHIC] [TIFF OMITTED] T8679.109

[GRAPHIC] [TIFF OMITTED] T8679.110

[GRAPHIC] [TIFF OMITTED] T8679.111

[GRAPHIC] [TIFF OMITTED] T8679.112

[GRAPHIC] [TIFF OMITTED] T8679.113

[GRAPHIC] [TIFF OMITTED] T8679.114

[GRAPHIC] [TIFF OMITTED] T8679.115

[GRAPHIC] [TIFF OMITTED] T8679.116

[GRAPHIC] [TIFF OMITTED] T8679.117

[GRAPHIC] [TIFF OMITTED] T8679.118

[GRAPHIC] [TIFF OMITTED] T8679.119

[GRAPHIC] [TIFF OMITTED] T8679.120

[GRAPHIC] [TIFF OMITTED] T8679.121

[GRAPHIC] [TIFF OMITTED] T8679.122

[GRAPHIC] [TIFF OMITTED] T8679.123

[GRAPHIC] [TIFF OMITTED] T8679.124

[GRAPHIC] [TIFF OMITTED] T8679.125

[GRAPHIC] [TIFF OMITTED] T8679.126

[GRAPHIC] [TIFF OMITTED] T8679.127

[GRAPHIC] [TIFF OMITTED] T8679.128

[GRAPHIC] [TIFF OMITTED] T8679.129


</pre></body></html>
